<html>
<title> - POST TAX REFORM EVALUATION OF RECENTLY EXPIRED TAX PROVISIONS [NO TEXT AVAILABLE REFER TO PDF]</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                                       HEARING
                                     
                                     BEFORE THE
                               
                               SUBCOMMITTEE ON TAX POLICY 
                                        
                                        OF THE
                            
                            COMMITTEE ON WAYS AND MEANS

                            U.S. HOUSE OF REPRESENTATIVES

                           ONE HUNDRED FIFTEENTH CONGRESS
                                  
                                  SECOND SESSION

                                  MARCH 14, 2018
                                    __________

                               Serial No. 115-TP03

                                    __________

               Printed for the use of the Committee on Ways and Means


                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE
                         
33-797                          WASHINGTON : 2019




[NO TEXT AVAILABLE REFER TO PDF]


 
                POST TAX REFORM EVALUATION OF RECENTLY EXPIRED TAX PROVISIONS
                
                
                
[NO TEXT AVAILABLE REFER TO PDF]                   
                   
                   
                   
</pre></body></html>
